<html>
<title> - FORCE OF NATURE: THE POWER OF SMALL BUSINESSES IN AMERICA'S RECREATIONAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


      FORCE OF NATURE: THE POWER OF SMALL BUSINESSES IN AMERICA'S 
                             RECREATIONAL 
                             INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 30, 2019

                               __________

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                              
                               

            Small Business Committee Document Number 116-056
             Available via the GPO Website: www.govinfo.gov
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-158                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------             
           
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                               WITNESSES

Mr. Ray Rasker, Ph.D., Executive Director, Headwaters Economics, 
  Bozeman, MT....................................................     5
Mr. Frank-Paul Anthony King, President and CEO, Temple Fork 
  Outfitters (``TFO''), Dallas, TX...............................     7
Ms. Lindsey Davis, Co-Founder and CEO, WYLDER, Salt Lake City, UT     8
Mr. John Wooden, Owner, River Valley Power & Sport, Rochester, 
  MN, testifying on behalf of the National Marine Manufacturers 
  Association....................................................    10

                                APPENDIX

Prepared Statements:
    Mr. Ray Rasker, Ph.D., Executive Director, Headwaters 
      Economics, Bozeman, MT.....................................    25
    Mr. Frank-Paul Anthony King, President and CEO, Temple Fork 
      Outfitters (``TFO''), Dallas, TX...........................    29
    Ms. Lindsey Davis, Co-Founder and CEO, WYLDER, Salt Lake 
      City, UT...................................................    37
    Mr. John Wooden, Owner, River Valley Power & Sport, 
      Rochester, MN, testifying on behalf of the National Marine 
      Manufacturers Association..................................    42
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Outdoor Industry Association.................................    47

 
      FORCE OF NATURE: THE POWER OF SMALL BUSINESSES IN AMERICA'S 
                      RECREATIONAL INFRASTRUCTURE

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:30 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Golden, Kim, Chu, 
Veasey, Evans, Schneider, Delgado, Craig, Chabot, Balderson, 
Hern, Hagedorn, Stauber, and Bishop.
    Also Present: Representative McAdams.
    Chairwoman VELAZQUEZ. Good morning. The committee will come 
to order.
    I first want to thank the witnesses for being here today to 
share their stories and perspective. Our committee has a 
longstanding tradition of working in a bipartisan manner on 
behalf of America's small businesses. Today, we can delve into 
a topic impacting small firms across the country, especially in 
our rural communities.
    With more than 146 million Americans across the nation--
nearly half of the U.S. population--participating each year in 
activities such as hiking, fishing, skiing, rafting, and 
biking, outdoor recreation is among the largest and fastest 
growing sectors of the U.S. economy.
    Recent data by the Bureau of Economic Analysis gives us a 
snapshot of the growing force that is the outdoor recreation 
economy. In 2017, the industry accounted for 2.2 percent of 
GDP--in actual dollars that is over $427 billion of economic 
output. To put that in context, that is a greater contribution 
than that of mining, utilities, and oil and gas production.
    In states like Montana and Maine, outdoor recreation is a 
significant portion of the overall state's GDP. In my home 
state of New York, there are nearly 300,000 people employed in 
outdoor recreation jobs. Even more encouraging is that the 
industry is outpacing the rest of the economy. In 2017, while 
the U.S. GDP grew at 2.4 percent, the outdoor recreation 
economy grew by 3.9 percent.
    Outdoor recreation is also extremely varied reflecting the 
natural and cultural diversity of our entire country. The 
largest components of the recreation industry--manufacturing, 
finance, retail, hospitality, and transportation--are all 
dominated by small businesses.
    It is also a driver of innovation and entrepreneurship. 
There has been an explosion in outdoor technical equipment and 
clothing, high tech signaling devices, and protective gear. 
Improvements and advanced technologies continue to drive 
innovation in transportation vehicles such as snow mobiles, 
motorcycles, and other off-road vehicles.
    Because outdoor recreation directly creates so many local 
businesses and jobs, we in Congress play an important role 
supporting small firms in the industry. Healthy public lands 
and clean air and water are the basic infrastructure of outdoor 
recreation, and without them the industry cannot survive and 
thrive.
    That is why it is critical there is adequate and 
sustainable funding to maintain and modernize our national 
parks, roads, and bridges.
    We also need to cut the red tape many entrepreneurs face in 
this industry. For instance, there needs to be coordination and 
a streamlining of the permitting process between federal land 
management agencies so that outfitters and guides that operate 
on public lands can get more Americans outdoors.
    We have also heard that this is another industry that is 
being impacted by the Administration's trade war. As a result 
of tariffs on key recreational products, manufacturers of boats 
and RVs are facing higher input costs. Trading partners of the 
U.S. have levied retaliatory tariffs on American made 
recreational products resulting in lost export sales.
    We know that when this happens small firms and consumers 
alike are paying the price through higher costs for outdoor 
activities and equipment, and more Americans are putting off 
that hiking or rafting adventure. As a result, we are seeing 
reduced economic growth in the communities that need it the 
most.
    I am excited to hear from our witnesses today on the 
success they have had building their businesses and about the 
opportunities they see on the horizon. I also want to hear 
about the challenges they are facing to grow and expand.
    That is because the businesses they run, and the high-
paying jobs they create only tell part of the story. Outdoor 
recreation has been shown to cut health care costs by reducing 
stress and obesity rates, along with bringing families and 
friends closer together, while also protecting the environment.
    As we look to build sustainable businesses on Main Street 
across the country, outdoor recreation offers a pathway to 
prosperity for millions of entrepreneurs and small firms across 
the country.
    I again want to thank our witnesses for being here today.
    I would now like to yield to the Ranking Member, Mr. 
Chabot, for his opening statement.
    Mr. CHABOT. Thank you, Madam Chairwoman, for holding this 
important hearing.
    Enjoying the outdoors is one of the Nation's most cherished 
hobbies. From small children running in their backyards to 
retirees motoring across the country in RVs, Americans love 
outdoor recreation.
    It is no wonder that according to the Department of 
Commerce the industry is playing a larger and larger role in 
our economy. The outdoor recreation industry contributed 
approximately $427 billion to the country's gross domestic 
product in 2017. As a percentage that is roughly 2.2 percent.
    Although we tend to think of traditional outdoor companies 
like hiking and biking outfitters, the entire outdoor 
recreation industry encompasses so much more. It is also 
intertwined with supporting industries like travel and tourism 
and construction.
    From the jobs perspective, the industry employed over five 
million workers in 2017. It is no surprise that many of these 
workers are employed by small businesses.
    The relatively new Department of Commerce study also 
showcased state-level data to provide a clear picture of this 
ecosystem. For example, Florida was the leader when it came to 
boating and fishing. Colorado was the leader when it came to 
snow activities. And Illinois led all states for the RVing 
category, and Ohio leads the Nation in everything else.
    Not really. I just wanted to see if everybody was 
listening, and they were. I also put in a plug for my state, 
Ohio. Great state, by the way.
    All this information is important to Congress as we 
continue to construct pro-growth policies that move our country 
forward.
    Today, we will be hearing from small businesses that 
populate the Main Streets of America's outdoors. I am looking 
forward to hearing from each witness about their background and 
their small business story. With the aging of our population, I 
am also interested in hearing more about the trends in their 
industries. Additionally, improving the Nation's infrastructure 
is vitally important to a healthy and growing outdoor 
recreation industry.
    I am looking forward to hearing from each witness how they 
view the debate surrounding infrastructure and what Congress 
should do moving forward. These issues not only impact the 
outdoor recreation industry but they also impact all of 
America's small businesses, entrepreneurs, and startups. When 
small businesses are creating, growing, and expanding, so does 
our economy.
    I want to thank every witness for taking time away from 
their businesses today. I want to thank you, Madam Chair, and I 
yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    If committee members have an opening statement prepared, we 
will ask that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Each witness gets 5 minutes to testify and the members get 5 
minutes for questioning. There is a lighting system to assist 
you. The green light will be on when you begin, and the yellow 
light comes on when you have 1 minute remaining. The red light 
comes on when you are out of time, and we ask that you stay 
within that timeframe to the best of your ability.
    I now would like to introduce our witnesses.
    Our first witness is Mr. Ray Rasker, Executive Director of 
Headwaters Economics, an independent, nonprofit research group 
that works to improve community development and land management 
decisions. After obtaining a B.S. in Wildlife Biology from the 
University of Washington and a Masters in Agriculture from 
Colorado State University, Mr. Rasker went on to study 
economics, earning a Ph.D. from the College of Forestry from 
Oregon State University. He has written widely on rural 
development and the role of environmental quality in economic 
prosperity. Thank you, Mr. Rasker, and welcome.
    Our second witness is Mr. Frank-Paul Anthony King. He is a 
constituent of Mr. Veasey, and he will be introducing him.
    Mr. VEASEY. Madam Chair, thank you very much.
    I am very excited to introduce our second witness, who is 
Mr. Frank-Paul Anthony King, who is the president and CEO of 
Temple Fork Outfitters in Dallas, Texas. Temple Fork Outfitters 
has assembled the world's most accomplished crafty anglers to 
design a complete line of fishing rods priced to bring 
Americans more into the sport which as an outdoorsman I 100 
percent support. Temple Fork Outfitters has a mission of 
keeping our Nation's rivers, streams, lakes, and oceans in good 
shape for the next generation of anglers because Mr. King 
believes there is no better way to connect with nature than 
through fishing.
    Mr. King, welcome. Thank you very much for taking the time 
to come from Dallas-Fort Worth up here to the Nation's capital, 
and we look forward to hearing from you.
    Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. Thank you.
    Our third witness is Ms. Lindsey Davis, who is a 
constituent of Representative McAdams. Thank you, Congressman 
McAdams, for joining us this morning. I turn it over to you to 
introduce Ms. Davis.
    Mr. MCADAMS. Thank you. Thank you, Chairwoman Velazquez, 
and Ranking Member for allowing me to introduce this third 
witness, Ms. Lindsey Davis.
    Lindsey is the CEO and co-founder of WYLDER Goods. That is 
the first female founded benefit corporation in the State of 
Utah. Lindsey is passionate about building ethical brands, 
branding commerce and conservation, and helping to protect 
Utah's most special places of which we have many, even leading 
Ohio. She is also a constituent of Utah's 4th Congressional 
District----
    Mr. CHABOT. Madam Chair, I move the gentleman's words be 
taken back.
    Mr. MCADAMS. Lindsey and her team at WYLDER Goods are 
creating and implementing a plan for business to be a catalyst 
for positive social change. She is an advocate for uniting 
different outdoor recreation user groups around issues of 
access, wildlife management, and habitat protection. Utah has a 
long reputation of a thriving outdoor recreation economy, and I 
am glad to see that legacy continue with WYLDER Goods and 
Lindsey. So thank you for joining us today.
    Chairwoman VELAZQUEZ. I would now like to yield to our 
Ranking Member, Mr. Chabot, to introduce our final witness.
    Mr. CHABOT. Thank you, Madam Chair.
    And I would like to recognize the gentleman from Minnesota, 
Mr. Hagedorn, to introduce our next witness.
    Mr. HAGEDORN. Well, thank you, Chairwoman Velazquez and 
Ranking Member Chabot.
    I am proud to introduce as one of our witnesses today, John 
Wooden, who is testifying on behalf of the National Marine 
Manufacturers Association about how infrastructure is critical 
to recreational access in our Nation. John is the president and 
founder of River Valley Power and Sport, Inc., which sells 
ATVs, boats, trailers, motorcycles, you name it, and has 
several locations across Minnesota including two or three in 
Southern Minnesota and in our district in the Rochester area. 
And John founded his business in 1996 upon graduating from 
Winona State University, the institution of fine higher 
learning there in Southern Minnesota in our district. And their 
business now counts for $85 million in revenue and over 120 
employees. So very, very successful. John and his wife Kerry, 
who is with him today, reside in Redwing, which is part of 
Congresswoman Craig's district I should add, and they do many 
things in the community, including they are on the board at St. 
Joseph's Catholic Church, coach of the youth hockey team, 
talking about their kids are playing hockey and doing so well. 
And part of the culture of the Spader Business 20 Group.
    And with that, thank you for being here, John, and we look 
forward to your testimony.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Rasker, you are now recognized for 5 minutes.

STATEMENTS OF RAY RASKER, PH.D., EXECUTIVE DIRECTOR, HEADWATERS 
 ECONOMICS; FRANK-PAUL ANTHONY KING, PRESIDENT AND CEO, TEMPLE 
   FORK OUTFITTERS (TFO); LINDSEY DAVIS, CO-FOUNDER AND CEO, 
    WYLDER; JOHN WOODEN, OWNER, RIVER VALLEY POWER AND SPORT

                    STATEMENT OF RAY RASKER

    Mr. RASKER. Thank you, Chairwoman Velazquez and members of 
the Committee. Thank you for the invitation. I am happy to be 
here.
    I am the executive director of Headwaters Economics. We are 
based out of Bozeman, Montana. We do a lot of research on the 
outdoor economy. I was part of the team that was hired by the 
Bureau of Economic Analysis to put their figures together.
    Every year we have 145 million Americans who play outdoors. 
And when we play outside, we spend a lot of money, more than 
$887 billion a year. As was mentioned before, that is hard to 
understand how big that number is unless you put it into 
context. It is more than twice what we spend on motor vehicles 
every year.
    And as a result of these expenditures on everything from 
gas for our cars to hunting and fishing, we create about 7.6 
million jobs nationwide. So it is obviously a very large 
industry.
    Recently, the Bureau of Economic Analysis estimated the 
size of the outdoor recreation in terms of its contribution to 
gross domestic product. And it is 2.2 percent of GDP. In 
Montana, it is 5.1 percent of GDP. We only got beat by Hawaii, 
who is slightly larger than us. So, I come from a state where 
outdoor recreation is a very large industry. It is a big part 
of our lifestyle. 2.2 percent of GDP, to put that into 
perspective, that is bigger than the contribution from all 
education and services, all schools and universities combined. 
It is bigger than motor vehicle sales. It is bigger than our 
air transportation industry.
    So, it is obviously big. It is also growing faster. In 
2017, U.S. GDP grew by 2.4 percent. The contribution from 
outdoor recreation grew by 3.9 percent. So, it is clearly a 
very large part of our economy.
    We also know that more and more people are choosing to live 
in communities with a high quality life and that business 
owners use outdoor recreation as a way to recruit talent. So, 
for a lot of communities, access to the outdoors is a 
competitive economic advantage.
    Investment in outdoor recreation infrastructure makes 
economic sense. On our website we have more than 140 economic 
studies that document the little ways that hiking and biking 
trails, picnic areas, fishing access sites and other 
infrastructure contribute to local economies, and a lot of 
these studies show that developing outdoor recreation 
infrastructure yields a very high return on investment. For 
example, the development of hiking and biking trails in 
Whitefish, Montana, resulted in 68 new jobs and $1.9 million in 
labor income. This is, in part, from tourists who spend money 
on local shops and hotels and restaurants; however, the trail 
system also leverages investment from local residents. Our 
research shows that locals who use the trails around Whitefish 
spend twice as much in local gear shops as those who do not use 
the trails. For every $1 spent on developing trail 
infrastructure, there is a $2.5 return to the local economy.
    Another example of an effective investment in outdoor 
recreation can be found on the Methow Valley of North Central 
Washington, famous for its extensive system of summer trails 
and winter ski tracks. In the Methow, for every dollar spent on 
trail infrastructure, there was a $6 return to local 
businesses.
    The Federal Land and Water Conservation Fund has been an 
essential tool for developing outdoor recreation infrastructure 
and has supported more than 1,200 projects in all 50 states.
    Let me give you an example of the importance of LWCF funds 
for the state of Montana where I live. We have 170,000 miles of 
river, with spectacular opportunities for fishing. But our 
rivers are meaningless unless we have access to them. And 
Montana has invested heavily in recreation access. There are 
332 fishing access sites in Montana, each one costs about 
$150,000 to develop. That is a total bill of $50 million. But 
the return on investment is significant. For that $50 million, 
and when you look at anglers who spend money in Montana, every 
year they spend $900 million a year. And this benefits local 
businesses throughout the state.
    This success is largely due to investments made possible 
through the Land and Water Conservation Fund.
    Let me conclude with an observation on the role of Federal 
public lands in outdoor recreation. In 2016, there were 592 
million visits to lands managed by the National Park Service, 
Fish and Wildlife Service, Forest Service, and Bureau of Land 
Management. Visitors to the Federal lands spent enough money to 
create 551,000 jobs in local communities. Paradoxically, the 
deferred maintenance backlog for these four agencies is 
estimated to be close to $20 billion.
    So in summary, investment in outdoor recreation 
infrastructure yields a large return in terms of jobs and 
profits for local businesses. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. Rasker.
    Mr. King, you are recognized for 5 minutes.

              STATEMENT OF FRANK-PAUL ANTHONY KING

    Mr. KING. Good morning, Madam Chair, ladies and gentlemen. 
Thank you for this opportunity to testify today.
    Temple Fork Outfitters is a 25-year-old Texas-based 
manufacturer and distributor of fishing rods. By every 
traditional measure, we are a quintessential small business in 
the outdoor rec industry.
    Prior to spending the past decade in the fishing segment of 
the outdoor rec industry, my career focused on investing in 
businesses outside this industry. This prior experience gives 
me a broad perspective from which to consider the uniqueness of 
small business in outdoor rec. To understand the force of 
nature that small business has become in our industry, there 
are three critical attributes of which to be aware: reach, 
alignment, and leverage. These attributes drive a 
disproportionally greater level of advocacy and support for 
policies of interest to outdoor rec and its participants than 
is witnessed in other industries.
    Reach. Temple Fork and most outdoor rec businesses are 
small. However, their apparent footprint is not an accurate 
indicator of their reach. For example, Temple Fork employees 
and domestic sales representatives live in 30 different states. 
We manufacture in five countries, while our products are sold 
in 25 countries through several thousand locations, as well as 
online. And we are followed via social media by hundreds of 
thousands of anglers globally. As Thomas Friedman extoled in 
2005 ``the world is flat'' and, as you know, small businesses 
increasingly can have a super-sized effect on their industries. 
The reach of these businesses is magnified because, unlike any 
other industry of which I am aware, this industry is a subset 
of its participants. One hundred percent of the industry is 
subsumed within the community of consumers. Thus, the industry 
and consumers form an exceptionally connected community with 
extremely broad reach.
    Alignment. In addition to the broad reach that the outdoor 
rec community exists, in my experience, no other industry can 
rival the extent to which it is fueled by passion. These 
businesses, representing 5.2 million direct jobs, are more akin 
to mission-driven, nonprofit organizations because they largely 
share common interest with the 146 million customers with 
respect to overarching requirements for a sustainable 
environment in which to recreate and the necessity of access to 
it. This alignment is reflected by the Outdoor Recreation 
Roundtable, a coalition of outdoor rec industry trade 
associations representing thousands of diverse businesses 
providing products and services to millions of outdoor 
recreation consumers. The Roundtable prioritizes environmental 
conservation and access to it. And while alignment is not at 
all perfect across this community on issues as complex and 
difficult as the environment and access, the key factor is that 
alignment is significantly higher than exists within any other 
remotely as large a group of American consumers.
    Leverage. Broad reach across a networked community with 
alignment of purpose results in outdoor rec's small businesses 
exhibiting an exponential amount of leverage when compared to 
peers in other segments of industry. Regardless of the subgroup 
within outdoor rec, the health and sustainability of our 
natural resources is always the first and foremost priority 
because it is the outdoor re community's most valuable asset. 
Outdoor rec and its numerous small businesses cannot exist 
without lands and waters on which to recreate. For this reason, 
an ever-increasing level of collective action, outdoor 
advocacy, and sustainability initiatives can be expected to 
flood digital channels as the outdoor community flexes the 
muscle of its shared message. Access to recreate is a more 
nuanced issue depending almost entirely on the mode and type of 
transportation involved. However, like the existence of places 
in which to recreate, the ability of the industry's consumers 
to gain access in order to recreate is fundamental to its 
success or failure. Without a doubt, significant challenges 
exist in finding agreement around levels of access and the 
modes of transport into recreational areas. However, there is 
only agreement within the industry regarding the requirement 
for access; therefore, balancing sustainability with the risk 
of overuse will receive increasing attention by outdoor rec's 
leveraged network.
    Since Temple Fork is focused on fishing and its 
participants, I have included in my written testimony several 
legislative priorities and policies specifically affecting 
fishing habitat and fishing access. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. King.
    Ms. Davis, you are recognized for 5 minutes.

                   STATEMENT OF LINDSEY DAVIS

    Ms. DAVIS. Dear Chairwoman Velazquez, Ranking Member 
Chabot, and members of the Committee.
    I am honored to be here today on behalf of the outdoor 
recreation industry. This hearing truly represents the strength 
and purpose of our business community.
    As we have heard this morning, our industry is made up of 
over 100,000 businesses, accounts for 5.2 million American 
jobs, and 2.2 percent of GDP. We contribute $778 billion in 
economic output, surpassing other sectors such as mining, 
agriculture, utilities, and chemical products manufacturing.
    The majority of the recreation economy is made up both 
small businesses run by passionate people who love the 
outdoors. I am one of them. I am the CEO of a women-owned and 
operated retailer called WYLDER Goods. As we have heard, we are 
the first female-founded benefit corporation in the state of 
Utah, and the on women-owned retailer in the outdoor industry.
    WYLDER is an online marketplace for the modern 
outdoorswoman. We are a multi-vendor platform for active, 
adventurist women for whom sustainability and products and 
conservation and ecosystems are paramount.
    We started as a benefit corporation to ensure our company 
would have a triple bottom line in perpetuity: people, plant, 
and profit. Our shopping experience uses icons and product 
stories in order to educate our customers and make them aware 
of their global impact. Since our founding in 2016, we have 
worked with over 85 innovative and sustainable brands, 38 of 
which are female-founded companies, and 15 of which are also B-
corps. We have been recognized by Outside Magazine, Forbes, 
Fast Company, and B the Change Media. We are also a graduating 
scholar of the Goldman Sachs 10,000 Small Business Program.
    Conducting business in a way that protects and preserves 
our natural resources is core to our mission. Our company has 
partnered with two nonprofits, the Greening Youth Foundation 
and Outdoor Alliance, to engage our audience in social and 
environmental justice, and relevant conservation initiatives.
    I came to the outdoor industry after 12 years in the 
nonprofit sector. As a lifelong outdoorswoman, I saw how my 
consumerism was affecting our human and environmental health, 
and I realized I had the unique skill set and vantage point to 
do something about it.
    Our recreation industry is intrinsically connected to 
issues of sustainability and conservation. We see the toll we 
are taking on our ecosystems firsthand every year in our snow 
pack, the health of our fisheries, in our oceans, and our 
wildlife populations.
    As a new hunter and angler, I see the effects our growing 
population and economy have on specifically wildlife and 
habitat. Thriving ecosystems are the backbone of our economy 
and federally-managed lands and waters are a core component, 
hosting more than one billion visits annually.
    The health of our industry truly relies on public access 
and infrastructure by way of trails, waterways, and wildlife 
corridors. Addressing the maintenance backlog by investing in 
green and blue infrastructure will improve visitation, make it 
possible to sustain wildlife, and allow recreationalists to 
continue building lifelong relationships to the outdoors.
    Much of our infrastructure is overused and overlooked 
leaving it unsafe and inadequate for our growing population. 
This makes one of the biggest challenges facing the outdoor 
recreation economy making sure that Congress allocates enough 
funding for our public lands. Legislation like Restore our 
Parks and Public Lands Act would address our maintenance needs 
and provide funding to improve our public lands and waters 
infrastructure. Full funding for the Land and Water 
Conservation Fund would provide certainty for access projects, 
like parks, trails, and recreation around the country, which 
will help businesses and communities plan and invest in 
recreation. The Restore Act will help guides and outfitters 
have the certainty they need to run trips and programs, and the 
Recreation Not Red Tape Act would allow for the prioritization 
of recreation and land management systems.
    Our industry is aligned across the spectrum on many of 
these issues thanks to groups like Outdoor Recreation 
Roundtable. They are bringing the business community together 
to advocate for the policies and infrastructure we depend on. 
We are all ready to work with you to ensure that our public 
land system evolves to meet the needs and challenges of the 
next century.
    Small businesses like mine are taking things into our own 
hands but we cannot do it alone. We are looking to Congress as 
a partner in solving these issues. Please help us care for our 
shared outdoor heritage to ensure outdoor recreation and its 
economic benefits can continue to be foundational aspects of 
American jobs, the American economy, and the American 
experience. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Ms. Davis.
    Mr. Wooden, you are recognized for 5 minutes.

                    STATEMENT OF JOHN WOODEN

    Mr. WOODEN. Good morning, Madam Chair, Ranking Member 
Chabot, and members of the Committee.
    Thank you for the opportunity to appear before you today to 
discuss the role small businesses play in the outdoor 
recreation economy and the Federal Government's role in 
supporting the industry's continued economic expansion.
    My name is John Wooden, and I live in Red Wing, Minnesota. 
Like 70 percent of our fellow Minnesotans, I am an outdoorsman. 
I am a hunter, a fisherman, a boater, and a power sports 
enthusiast. I am extremely fortunate in that I am also able to 
further foster the enjoyment of the great outdoors through my 
business, River Valley Companies, which owns and operates seven 
retail locations across Minnesota and is celebrating its 24th 
year in business this year. Among the many recreational product 
lines our company retails are brands like Minnesota-based 
Polaris Industries and Alumacraft Boats.
    Just last month, the Bureau of Economic Analysis (BEA) 
released an updated report reaffirming the outdoor recreation's 
role as a significant economic driver generating $778 billion 
in gross economic output and supporting 5.2 million American 
jobs, while outpacing the overall U.S. economy.
    Boating and fishing are top contributors to outdoor 
recreation's economic prowess, which comes as no surprise 
considering 141 million Americans take to the water each year. 
In Minnesota alone, the boating economy generates $3.1 billion 
in economic activity, supporting nearly 11,000 jobs and 700 
marine businesses in the state. For the first time, BEA's work 
was expanded to measure outdoor recreation's economic impact in 
each state finding it accounts for 2.6 percent of my state's 
GDP. While this report serves as an invaluable tool for 
policymaking decisions at every level of government, the one 
key takeaway is that recreation is an economic necessity in my 
home state of Minnesota and in every state across the Nation.
    As a testament to the growing outdoor recreation and 
boating industries, River Valley recently opened up an all-new 
60,000 square foot marine center in Rochester, Minnesota.
    Another eye-opening figure I will reference is $20 billion, 
the combined maintenance and repair backlog on our Nation's 
Federal lands and water systems. Looking at this figure makes 
the BEA data even more impressive give that outdoor small 
businesses across the country have been able to not just 
survive, but thrive, despite the crumbling conditions of the 
physical environment we do business in.
    From national parks and marine sanctuaries to recreation 
areas managed by the U.S. Army Corps of Engineers and U.S. 
Forest Service, the Federal Government manages hundreds of 
millions of acres of public lands and waters that offer 
unparalleled opportunities for a variety of recreation 
activities. These recreation assets, so many of which have 
fallen onto the backlog at a rapid pace, are integral to 
keeping the outdoor industry open for business.
    The time to improve recreational infrastructure is now, and 
Congress must act. Fortunately, we are all hearing that several 
infrastructure bills are expected to advance in 2020, 
presenting a prime opportunity to enact a more comprehensive 
approach to Federal infrastructure policy that addresses 
outdoor recreation needs.
    For starters, Congress should reauthorize the Sportfish 
Restoration and Boating Trust Fund in the Fixing America's 
Surface Transportation Act (FAST), which would continue this 
critical user-pay program that funds conservation and 
infrastructure projects in all 50 states. The boating community 
led the charge to establish the Trust Fund nearly 70 years ago. 
Today, we provide the vast majority of funding to the $650 
million program.
    Expanding broadband access in Federally-managed lands and 
waters is a commonsense proposal and should be incorporated in 
FAST. Access to broadband is not just about trolling websites 
and uploading selfies; it enables boaters to safely navigate 
our Nation's waterways and remain up-to-date on changing 
weather conditions.
    Additionally, Congress should make sure recreation gets a 
fair share in how the Army Corps of Engineers decides which 
water infrastructure bills receive priority. And the Water 
Resources Development Act is an appropriate vehicle for this 
fix.
    It is important to note that the Corps is one of the 
Nation's leading Federal providers of outdoor rec with more 
than 400 lake and river projects in 43 states, yet antiquated 
project prioritization processes do not account for recreation 
as an economic benefit and prevent the agency from carrying out 
infrastructure projects, like dredging, that are critical to 
safe, navigable marine recreation, as well as the countless 
local economies that rely on recreational boating's economic 
footprint.
    The boating industry looks forward to continuing to work 
with the members of the Committee and other Committees of 
jurisdiction to increase and expand opportunities for 
recreation on our public lands and waters and maximize the 
economic contributions to the outdoor economy.
    Thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Wooden.
    Thanks to all of the witnesses. The stories that you shared 
with us are incredible and help us to recognize the important 
role that the outdoor recreation industry plays in our economy. 
I want to bring some of those jobs to New York not only to 
upstate New York but also downstate New York City.
    All of you mentioned the importance of the Federal Land and 
Water Conservation Fund in that it has supported more than 
1,200 projects in all 50 states. I also sit on the Natural 
Resources Committee and I supported H.R. 3195 when it passed 
out of the committee.
    Mr. Rasker, can you talk about the importance of fully 
funding the Land and Water Conservation Fund in the context of 
the outdoor recreation industry?
    Mr. RASKER. Sure. Interestingly enough, we have on our 
website, if you just type in LWCF, you can see all the various 
projects and how they have been tracked across different 
states. All 50 states benefit from LWCF. And we benefit in a 
variety of ways. It protects cultural heritage sites. It 
protects fishing access sites and hunting access sites. Working 
landscapes, farms and ranches benefit from LWCF. So do parks. 
So it is across the board. It is across the country.
    I will point out that as a research group that is very much 
into data, it is very difficult to track how LWCF funds are 
spent. We had a friend at Interior who was able to share some 
information, and has since moved on. But we do have the 1,200 
projects, that data ended in 2014. There is no recent data on 
how LWCF funds have been spent.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. King, it is my understanding that the outdoor 
recreation industry suffers from the perception that it is only 
a seasonal industry. What can be done to market jobs in the 
outdoor recreation economy to get around the stigma that these 
jobs are only seasonal in nature?
    Mr. KING. I would say that I think that what you are seeing 
is that a stigma might exist in let's say older age group 
folks, and that, in fact, what we are seeing is that in 
generation Z, millennials, is an enormous amount of 
understanding about the opportunities in the industry and even 
greater participation in outdoor rec at younger ages than we 
saw in some previous generations. And so while I absolutely 
acknowledge that there may be some opportunity to show older 
folks that the jobs are out there, right now there are a lot of 
people very interested in finding jobs that are passion driven 
instead of profitability driven, and a lot of folks interested 
in the industry.
    Chairwoman VELAZQUEZ. Thank you.
    This question is open for anyone on the panel to answer. 
Over 144 million Americans participate in outdoor recreation 
and the industry is growing, supporting 300,000 in my home 
state of New York. I think may people view this industry as 
only existing in rural communities. What more can the industry 
do to build a broader, more inclusive customer base that 
reflects our country's reach and present diversity?
    Mr. Rasker?
    Mr. RASKER. I will take a stab at that.
    If you look at the recent BEA numbers, the numbers, the 
estimate of activities are that involved in the production of 
goods and services that contribute to gross domestic product. 
They split it up into sort of nature based versus other. And 
the fastest growing is nature based. So that is skiing and 
hiking and hunting and the sort of things we can imagine 
happening in the great outdoors.
    But, for the first time now BEAs also measured activities 
that tend to take place closer to larger metropolitan areas--
soccer, volleyball, golf, activities that occur in more of a 
manmade environment. So there are now metrics of that and it is 
significant and is growing very quickly.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Davis, our committee is very focused on supporting 
entrepreneurs. As the CEO of your own company, I commend you 
for taking the risk to start your own business. Are you seeing 
more people start businesses in this industry? Have you noticed 
a common threat that spurs them to do so?
    Ms. DAVIS. Thank you for your question and your 
acknowledgement of startup hustle.
    Yes. You know, kind of in response to this question about 
diversity, I think our industry is changing a lot right now. We 
are very young, like the first kind of lull of leadership is 
now turning over. We are getting more women in business. We are 
getting more startups. We are getting more entrepreneurs as the 
growing demographic of young people getting outside just 
continues to skyrocket and skyrocket. And so you are absolutely 
right that people are looking to align their passions with 
purpose and their careers. I get 20 emails a week about how 
people can work for us. So I think the drive is there. We 
certainly, as an industry, have a lot of work to do as far as 
building on ramps for involvement into the industry itself. One 
of our nonprofit partners does a great job of that at the Green 
Youth Foundation and they fast track mostly undeserved youth in 
urban populations' ability to get into careers in the Federal 
Land Management agencies. But from the business perspective, I 
look to groups like the Offices of Outdoor Recreation to 
provide resources in addition to the small business 
development, women's business development center, et cetera.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Wooden, my time has expired but I am sure the Ranking 
Member will be able to direct some of his questions to you. 
Thank you.
    Mr. WOODEN. Thank you.
    Mr. CHABOT. Thank you, Madam Chair.
    Mr. Rasker, I will begin with you.
    The Department of Commerce's report found that the outdoor 
recreation industry is growing rapidly. Why do you believe that 
is the case? And what can we do or what would you suggest we do 
to continue growth in that direction?
    Mr. RASKER. Well, I am aware of things that BEA uncovered 
was some information that we just did not know before. So it is 
growing rapidly and it is very big. But it may have been that 
way for quite some time. They are just measuring it for the 
first time.
    I think there are several things going on. I think more and 
more people around the country are really focused on having a 
high quality of life. It is important to people. And people 
tend to be healthy. Even retirees are different from retirees a 
generation ago. They tend to be healthier, more outdoors 
oriented. I also think there is a lot more opportunity. In a 
state like Montana, we just have so much access to the 
outdoors.
    Mr. CHABOT. Thank you. Thank you very much.
    Mr. Wooden, I will turn to you next.
    Is there any advice that you would give to a person who 
perhaps lives in a community that is on a body of water or 
river, say the Ohio River, and might consider purchasing a boat 
because other people in that community have boats? What factors 
might one consider before making such a purchase?
    Mr. WOODEN. That is a great question.
    I think Mr. Rasker referenced that I think we all as, tell, 
the times are changing, we have become electronic in nature. 
Whether we are talking about a family or an individual, the 
escape to nature is what we saw every day in the boating 
business. Right? So if you did it in Ohio or you come to the 
great state of Minnesota, what we would say is it is very, very 
easy to get yourself into boating or get your family into 
boating. And so we provide, you know, it is really important, 
proper water access. And I hear that all across the Nation that 
as it becomes more popular, the accessibility to these 
waterways is a challenge and the infrastructure has just not 
been up to date with the usage.
    I think the other thing, we use the term ``public lands are 
being loved to death.'' Right? They are being boated to death, 
if you would. And we need some reinvestment.
    Mr. CHABOT. Thank you very much.
    And along those lines with reinvestment, Ms. Davis, you had 
mentioned infrastructure. Are there particular things that you 
would like to see us do at the Federal level that could affect 
obviously across the country that would improve the various 
industries that we talked about here?
    Ms. DAVIS. Yes, absolutely.
    We go to a lot of closed campgrounds. The Forest Service is 
really struggling to stay up to speed with management and also 
keeping operations growing, especially with growing wildfire 
issues. So that is a big one.
    Infrastructure-wise, we are really combatting wildlife and 
development, especially in the Salt Lake area with the Wasatch 
National Forest, which is the most visited national forest in 
the country. So that specific area sees 9 million visitors a 
year, which is more than all five of the national parks 
combined. So we are using citizen science right now to figure 
out where the species' density is the highest and then work 
with the Department of Transportation and other agencies to 
make sound choices about where development should be. But all 
of those things really impact someone's ability to enjoy the 
outdoors, like going somewhere and having it be open or being 
there and seeing the most memorable wildlife experience you are 
going to have.
    Mr. CHABOT. Thank you very much.
    And Mr. King, with the time that I have got remaining, are 
there trends in angling and fishing that are either positive or 
negative that we ought to be concerned about? What do you kind 
of see?
    Mr. KING. Sure.
    Mr. CHABOT. Fishing, I kind of think about it, when I was 
young, knothole baseball was a big deal. We all did it. Now it 
is soccer and bowling and golfing. They all have trends. Where 
are the trends in your industry?
    Mr. KING. I think there are two trends that are fun to know 
about. One would address the Chairwoman's question. The fastest 
growing area of fishing is urban fishing, which is fishing in 
nontraditional waters for folks that necessarily cannot get 
outside town. It is a very interesting area. In fact, one of 
the places I could direct you on the Internet is to just check 
out fishing in the L.A. River, which is all concrete-based 
fishing and it is getting a lot of play.
    The second area is because of the decline in infrastructure 
in our freshwater facilities, the second fastest growing area 
of fishing and boating potentially is in salt water because 
there is more water and less infrastructure issues. So those 
are two big things going on.
    Mr. CHABOT. Thank you very much.
    Madam Chair, it is a very interesting hearing. So thank 
you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    We recognize Mr. Golden, Chairman of the Subcommittee on 
Contracting and Infrastructure from Maine.
    Mr. GOLDEN. That is okay. Minnesota is great, too. I love 
Minnesota. I went out to Minnesota and did a field hearing. I 
was part of the Subcommittee with Mr. Stauber. I thought it was 
great.
    Mr. CHABOT. But we can all agree not as good as Ohio. Thank 
you.
    Mr. GOLDEN. You are making a hard push for Ohio today.
    I know this is an important subject for Maine. In fact, 
there is a graph that has been handed out to Committee members 
that would show that other than Montana and Maine, we have the 
highest percent of our state in GDP in the year 2017 that is 
being driven by outdoor recreation activities towards them and 
other issues. And that is just one year but it is like that 
pretty much year in and year out.
    I think, too, the diversity of outdoor recreation in the 
state of Maine is pretty amazing. We have got some good 
seasons, a nice long winter. You know, a beautiful summertime 
when everyone is trying to get away from the heat down here in 
places like this. People even I think take into account tourism 
and outdoor recreation for our fall leaf season. So there 
really is a lot of diversity and the importance of this issue 
is not lost upon me and many people in Maine.
    I wanted to ask, some of you have talked about the deferred 
maintenance backlog. In Maine, at Acadia National Park, we 
actually had 3.5 million visitors last year and there is a 
really substantial maintenance backlog. The traffic trying to 
go into this particular national park can be absolutely 
unbelievable on a busy summer day. And the number of people in 
there visiting, it is just obvious that we need to do something 
about that cosponsoring the legislation.
    But I want to give some of you, anyone that really wants 
to, the opportunity to elaborate on how you think eliminating 
this backlog does help businesses, particularly small 
businesses that are in this line of business?
    Mr. WOODEN. I will take that. That is an easy one for the 
boating industry. If we have the proper infrastructure, we are 
going to sell more boats in whatever state the dealership is 
in. We continue to hear day in and day out that the 
infrastructure, whether it is the highway that beats the boat 
up on the way there, or it is the bridge that is not existent 
anymore, or whatnot, but I hear that often.
    Bringing it back to Minnesota for a minute, we have a 
Federal waterway. It is called the Mississippi River. And the 
Army Corps of Engineers is the entity that oversees it. And its 
sole purpose, I believe when it was created, was to keep a 
navigable channel for purposes of barges and bringing 
commodities up and down, which is very important. We get that. 
However, another subset, and I think Mr. Rasker mentioned, is 
we just began to measure what the economic impact is of say 
boating, for example, on outdoor rec. And I think that needs a 
little attention as the lock and dam systems that go up and 
down the Mississippi River, for one example, are just in dire 
need of additional funding and need some attention. And the 
recreational boater has been kind of lost waiting for it.
    Mr. GOLDEN. Thanks for pointing that out. And I will point 
out, too, this has economic impact in Maine even where we built 
a lot of boats. Whether it be the Intercostal Highway or people 
in major rivers like you are speaking about, we can reap the 
benefits.
    I also have got a guy in Maine who makes jack traps, in 
Monmouth, Maine, who is growing what was a pretty small local 
business is now becoming more of a nationally-focused business 
with broadband which you spoke about, Mr. Wooden, and the 
ability to market himself into new markets, trying to convince 
people in Minnesota to give up on jigging and to get into the 
kind of ice fishing that involves putting this and this, ice 
traps, high quality ice traps, and sitting out there in a nice 
fishing shack. But in a small town, the jobs that he is able to 
create is pretty impressive.
    Very quickly, I just want to ask if any of you are also 
familiar with the DOT program. We talk about LWCF here and some 
of the other things with national parks. But when it comes to 
thinks like hiking, mountain biking, snow mobility which is 
really important in Maine, are any of you familiar with DOT's 
Recreational Trust Program which I think is also overburdened 
and underfunded? And I was just curious if any of you have 
heard of the program or used it.
    Well, I am putting a plug in for it right now. Recreational 
Trust Program, high expense for a lot of people to build trails 
and then maintain them, particularly municipalities. It falls 
on taxpayers, property taxpayers and others cannot afford it, 
but the return on investment is awfully high, particularly, I 
mean, there were communities in Maine that their tourism season 
is the dead of winter for snowmobiling but the maintenance of 
those trails is incredibly expensive. So, thank you.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Now we recognize Mr. Hern, from Oklahoma, Ranking Member of 
the Subcommittee on Economic Growth, Tax, and Capital Access.
    Mr. HERN. Thank you, Madam Chairwoman, and Ranking Member 
Chabot, and our witnesses for being here today.
    As an avid outdoorsman, I know the wonders of the outdoor 
recreational industry and the beauty of the outdoors firsthand. 
Additionally, through my numerous visits to small businesses in 
Oklahoma's 1st District, I have learned the large role that 
outdoor recreation businesses and these activities play in our 
Nation's economy.
    This includes my recent visit to Zebco, an outdoor and 
sporting goods retail company located in my district. While 
touring Zebco, I got an even stronger appreciation for this 
industry and learned in great deal that sport fishing is about 
much more than just having fun in the outdoors. It is also 
about creating jobs and generating stronger economy.
    Mr. King, you operate a fishing equipment company which is 
similar to Zebco. Something I learned through my visit to Zebco 
was how much the sport fishing community puts back into 
conservation efforts throughout the country. I thought this was 
very insightful and something I would love for other members on 
this Committee and the general public to hear about. Could you 
describe for us what you and others in the industry are doing 
to support fisheries, conservation, whether it be financially 
or otherwise?
    Mr. KING. Yes, sir. Thank you.
    I think Mr. Wooden actually mentioned earlier, the Sport 
Fish Restoration Boating Trust Fund was put in place many, many 
decades ago, and what it is is basically every manufacturer of 
fishing goods as well as some other industries has an excise 
tax of 10 percent on the products that we sell. That 10 percent 
equates to about $650 million a year. That $650 million a year 
primarily goes to the states to support their fishing and 
hunting departments. So off the top there is $650 million that 
supports at the state level the industry that we are in as 
well.
    I think without question, our industry is one that supports 
numerous organizations that also support conservation, such as 
CCA, such as Trout Unlimited. You know, hundreds of millions of 
dollars going into conservation directly from the organizations 
as well as the individual participants.
    Mr. HERN. Thank you for your thoughts. And clearly, it is 
pretty fascinating what each of you all do to help your 
respective areas to maintain the conservation of your business, 
of your industry. I believe it is our job in this Committee to 
concentrate on the correct issues impacting the outdoor 
recreation industry, and I believe these types of hearings are 
a great way for us to refine our focus to ensure the Committee 
is utilizing all our resources correctly.
    Do you believe, Mr. King, that Congress is concentrating on 
the correct issues impacting the outdoor industry at this time?
    Mr. KING. You know, I think that it is fabulous that we are 
finally realizing the economic value, the output. I think the 
thing that we are missing is that in addition to the output, 
the national resources are an asset of this country. And just 
like any asset, they have to be maintained and that is a 
recurring theme here is that we are taking from the asset. We 
are all enjoying hundreds of millions of dollars, almost 3/4 of 
a billion dollars in value out of it but we are failing to 
recognize that if we do not continue to invest back into that 
infrastructure, not only are we going to suffer as an industry, 
the entire Nation suffers. So I think that is the only part we 
are missing here.
    Mr. HERN. I thank each of you for your time today, and I 
really appreciate all the work you are doing to address the 
issues. And obviously, it is not the purview of this Committee 
on infrastructure but I know it is an important bipartisan 
issue that we all would love to work on at this time to move 
forward to help us all move forward with controlling and 
maintaining our assets.
    Madam Chairwoman, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize, Ms. Chu, from California, Chairwoman of 
the Subcommittee on Investigation, Oversight, and Regulations.
    Ms. CHU. Mr. Rasker, my district is in the Los Angeles 
County area and is home to the San Gabriel Mountains. And I was 
part of a decade's long effort to get more resources to these 
mountains, and we were rewarded in 2014 when President Obama 
proclaimed it a monument. The San Gabriel Mountains monument. 
His proclamation recognized that these mountains represent 70 
percent of the open space in the Los Angeles region and it 
makes nature accessible to 15 million people. And so protecting 
these lands as a national monument was key to improving access 
and opportunities for recreation for all these millions.
    Now, when we first began this process, naysayers claimed 
that there would be great harm to businesses in the mountains, 
like the skiing business that was in the mountains. And 13 
nearby cities said that there would be overcrowding in their 
cities.
    So what would you say to them? What would you tell them 
about the economic benefits that public lands protections, like 
a national monument status could bring for businesses of all 
types that are located nearby?
    Mr. RASKER. Sure. We looked at 10 national monuments that 
were over 10,000 acres in size. And we looked at economic 
performance metrics. So per capital income, population growth, 
population, I am sorry, total personal income. And looked at it 
over time before and after monument designation. And so of 10 
monuments we looked at, whatever growth trajectory that 
community was on continued after monument designation. So there 
is no evidence that the monuments cause harm. A recent study by 
Resources for the Future looked at business creation and sees 
that there is an increase in business creation, business 
startups after a monument is designated.
    It is not just outdoor-related businesses. It is also 
people who want to live next to public lands for quality of 
life reasons. They could be retirees. They could be anybody 
working in any industry who just happens to want to be in a 
place where they can after work go fly fishing or snowmobiling.
    Ms. CHU. Well, I wish I had you around when those naysayers 
were talking because that is a very compelling answer.
    And in fact, we want to expand on our progress. My bill, 
H.R. 2215, the San Gabriel Mountains, Foothills, and River 
Protection Act would expand the San Gabriel Mountains national 
monument, designate new wilderness areas in wild and scenic 
rivers, and establish a new national recreation area in the 
foothill communities and river corridor adjacent to the 
existing national monument. It would allow communities to 
partner with the National Park Service to build new facilities 
like trails and campgrounds to better connect residents to 
recreation opportunities in the mountains. And in fact, we are 
fortunate already to see a culture of advocacy and support for 
outdoor recreation through local nonprofit organizations. We 
want to expand on this.
    For instance, we have the active--it is called Active SGV 
and the Nature for All Coalitions, which have guided public 
policy and connected those communities to recreational 
opportunities. And because they did that, last year, REI 
awarded over $100,000 to these nonprofits in the San Gabriel 
Valley to support a transit trail program that connects public 
transportation hubs to trail heads in the mountains. And we 
feel this, in turn, spurs economic growth in the foothill 
communities by enabling more Angelinos to have access to 
outdoor recreation.
    So in your research, have you found a connection between 
public lands advocacy and investment in recreation by 
businesses and individuals?
    Mr. RASKER. Are you asking whether we have tracked the 
effectiveness of advocacy?
    Ms. CHU. Yeah.
    Mr. RASKER. We have not. We have not specifically looked at 
that.
    Ms. CHU. What would you do to make sure that we have--what 
would be the specific types of investments that you think 
should be made to increase growth in the outdoor recreation 
industry in areas like ours?
    Mr. RASKER. Sure. I will just give an example where I live. 
I live pretty close to Yellowstone National Park. We are 
surrounded by seven national forests. In the time that I have 
lived in Bozeman, 30 years, it went from 3 million visitors to 
now more than 4 million visitors a year. And when you go into 
Yellowstone, it is very obvious the infrastructure is 
crumbling. At the same time, they have tremendous recreation 
opportunities in the surrounding national forest, BLM land, 
that would be much closer to where communities are, much closer 
to where businesses would benefit, but there is no recreation 
infrastructure. Gallatin National Forest, for example, has 
hardly any recreation staff. So our ability to build new trails 
and welcome people into our national forests has just 
disappeared over the last 30 years. And I think that is a real 
pity.
    Ms. CHU. Thank you.
    I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize the gentleman from Minnesota, Mr. 
Hagedorn, for 5 minutes.
    Mr. HAGEDORN. Thank you, Chair, and Ranking Member. I 
appreciate the opportunity. It is good to see all of you. 
Thanks for your testimony. It is nice to have a fellow 
Minnesotan here today, especially since our state has so many 
wonderful outdoor recreation opportunities. Beautiful land, and 
of course, we are the land of 10,000 lakes, although I think it 
is more like 15,000 when they actually count them up.
    And so I will start with our friend, Mr. Wooden. Minnesota 
has made some efforts to join, I think there are 16 other 
states you were talking about to establish outdoor recreation 
offices. How, specifically, would that help your business and 
the people in the state of Minnesota nationally?
    Mr. WOODEN. You have good questions.
    So 16 states have adopted the Office of Outdoor Recreation. 
In Minnesota, we began some testimony earlier this year, and so 
we are in process. But how would it impact the boating industry 
in the state of Minnesota? I think the big news would be it 
would give a singular voice to outdoor recreation rather than 
we are sort of governed by DNR offices that oversee these 
resources. We are sort of overseen by the Army Corps of 
Engineers. But having a singular voice in a platform to oversee 
outdoor rec I think is the biggest advantage, Mr. Hagedorn.
    Mr. HAGEDORN. That is very good.
    In your testimony, you mentioned some things, the 
infrastructure of broadband, for instance, and I know there are 
various ways you can explain how important that is to people 
who are engaging in recreational activities. Locks and dams. I 
have actually testified on that myself, how important that is. 
I think we have six of them in just the two counties on the 
Mississippi River that I represent in the 1st District. And it 
is something like $80 million per lock and dam to keep those 
things maintained over time, and that is really important, not 
just for farmers but for everyone who uses the waterways.
    But then you get into other issues. The workforce. Finding 
skilled workers. Is that something that any of you are running 
into, having problems? We hear this all over the place. Is it 
affecting your businesses?
    I will open it up to any of you at this point.
    Mr. WOODEN. I will take it as well. And I can keep it 
short.
    It is the number one factor in inhibiting the growth of the 
marine industry. I think the fallacy is that the jobs we create 
are not livable wage jobs. And they really are. And there is a 
lot of skilled jobs that are created in our industry and so it 
is not being known early on in our schools that there are these 
opportunities in outdoor rec. So I think federally and at a 
state level, we need to create more general awareness and then 
create programming around it. I know that is a big issue in 
Minnesota.
    Mr. HAGEDORN. One of the companies that supply you with 
boats is Alumacraft. They are over in St. Peter, Minnesota. I 
had a chance to tour that operation not too long ago. And they 
have some terrific opportunities, whether it is welding or, you 
know, all these different things. You are right. People can 
come, get in line, and start making very good wages and have an 
excellent life. It is too bad that I think for about 20, 30 
years many people have been convinced they should not move into 
those types of employment because they said if you do not go to 
a 2- or 4-year college and all these things you are just not 
going to amount to anything. We are trying to reverse that.
    And the industry that you are testifying for today, the 
National Marine Manufacturers Association, I appreciate their 
support for legislation that Congressman Van Drew and I have 
introduced that would expand the use of 529 Education Savings 
Accounts to move towards certification programs, vocational 
training, the purchase of tools and equipment. You know, all 
the apprenticeships. And so we need to put them on par with the 
4-year institutions. And I think that by doing that I think we 
can continue to promote skilled workers and workforce and give 
people a chance to have a choice and to have the life that they 
want.
    So our legislation is called the American Workforce 
Empowerment Act and it is H.R. 4469. I appreciate the 
industry's support and I would ask my members on the Committee 
to take a look at that as well. But thank you all for your 
testimony. I appreciate it.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize Mr. Evans from Pennsylvania, Vice Chair of 
the Committee for 5 minutes.
    Mr. EVANS. Thank you, Madam Chair.
    Philadelphia is my home city and has the largest park 
system in America known as Fairmount Park.
    Just last week I attended a walk to end lupus at Memorial 
Hall, which is in West Fairmount Park along the Schuylkill 
River. Memorial Park was built as the art gallery in 1876 as 
the centennial exposition to celebrate the 100th anniversary of 
the signing of the Declaration of Independence. Schuylkill 
River is used for canoeing and row boating. It has been a 
source of recreation for citizens of Philadelphia for 
centuries.
    Dr. Rasker, your testimony further stated that outdoor 
recreation reduces healthcare costs. Healthcare costs is a 
serious issue to Americans. As a member of the Ways and Means 
Committee, I voted to support Committee passage of House 
Resolution 3, which helps reduce prescription drug prices. Dr. 
Rasker, how does outdoor recreation reduce healthcare costs?
    Mr. RASKER. It is a good question. We have, as I mentioned 
earlier, a searchable database on our website where you can 
take a look at all the benefits in outdoor recreation and peer 
reviewed studies on this. There is quite a bit of academic 
literature measuring whether outdoor recreation contributes to 
better health outcomes. And the conclusion is fairly solid. 
People who recreate outdoors are healthier physically and they 
are also healthier mentally.
    Mr. EVANS. The next question I have, and this is to all of 
the panelists, I have often spoken about the need to repair 
infrastructure in my district and across the country. I said if 
you affect the environment, you affect the behavior. Better 
infrastructure creates better communities. As stated by the 
panelists today, there is currently a maintenance backlog of 
the National Park Service. Independence Hall is also in my 
congressional district among those agencies which is why I 
cosponsored Restore our Parks and Public Lands Act.
    To any of the panelists which happens, what is the 
maintenance backlog of outdoor recreation and infrastructure in 
terms of usability and safety? It is for all the panelists.
    Ms. DAVIS. Well, the outdoor enthusiasts that support my 
business often experience lack of trails, lack of cross country 
skiing, unmaintained climbing anchors, terrible toilets or no 
toilets at all. You know, all these things really contribute to 
not only your overall experience but the safety and even 
ability to meet up with other people when you are there. So I 
think investment in infrastructure can only improve people's 
experience and not only their ability to get outside.
    Mr. EVANS. Anyone else?
    The poverty rate in Philadelphia is nearly 25 percent. 
Poverty means that large portions of Philadelphians are not 
able to travel long distance or buy expensive equipment for 
activities such as skiing and hiking. To any of the panelists, 
can you illustrate why people in my district, an urban with its 
share of poverty and crime should care about outdoor 
recreation?
    Ms. DAVIS. I will try to tackle this.
    So I think as an industry we have--this is one of our 
biggest jobs to do is to actively work on diversifying who 
recreates outside and why. So from our business perspective, we 
have done a lot really in representation in putting people of 
color and diverse backgrounds and from places and acknowledging 
that a walk in the park in your city is just as valid an 
outdoor experience as climbing a mountain somewhere. So that 
further broadens our community and acknowledges who is outside 
and who is allowed to call themselves an outdoorsperson. And so 
from there, I mean, we have heard a lot about how our industry 
has a lot of work to do in terms of creating job fairs. You 
know, making sure people understand that this is a viable 
career path for them, and we certainly have even more work to 
do there with communities, urban communities, communities of 
color. This is why I look so much to the Greening Youth 
Foundation who works directly with that population to encourage 
them and also financially support their ability to get into 
conservation careers. So I think as we not only change the face 
of the outdoor industry but also change the face of 
conservation we will really chip away at that issue.
    Mr. EVANS. Madam Chair, I yield back the balance of my 
time. Thank you.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Now we recognize the gentleman from North Carolina, Mr. 
Bishop, for 5 minutes.
    Mr. BISHOP. Thank you, Madam Chairwoman.
    This is very important to my state. The statistics 
furnished to me is we have got 260,000 jobs, $28 billion worth 
of consumer spending, and $8.3 billion of wages in North 
Carolina. It is a big deal. You guys are good at macro numbers. 
That certainly brings it home to me.
    I have been reminded as I have been hearing your testimony, 
and each of you have spoken to it and the materials provided to 
us speak to the question of sort of, I think you put it best 
for me, Mr. Wooden, public lands being loved to death. Public 
lands and facilities. And there being backlogs, large backlogs 
in maintenance and infrastructure investment need.
    And I was wondering, as I listened to a lot of that, I 
thought about the concept from many years ago, and as an 
economist I guess, Dr. Rasker, you are an economist on the 
panel, I was just thinking about the ``Tragedy of the Commons'' 
as they used to describe it. Is that a phenomenon we are 
dealing with here? And I am interested in each of your 
perspectives. Are we looking primarily to resolve this problem 
through generalized public investment or should there be 
privatized means of addressing this shortfall, like user fee-
based options? And maybe Dr. Rasker, I will address it to you 
since that is your profession. Again, I may be way over my skis 
but I remember that concept and I am just curious about your 
outlook.
    Mr. RASKER. So if we go back to the ``Tragedy of the 
Commons'' original article, it was not so much about 
privatization as it was about the management of the commons. 
And I think that is where we are talking about the maintenance 
backlog being such a big deal on places where there is Federal 
public lands. In the west, almost half of our land is managed 
by Federal agencies. So that is why we talk about Federal-
public lands a lot. But it is not the case in other parts of 
the country.
    One of the things that BEA did was measure the government's 
contribution to outdoor recreation investment by government 
agencies. And it is significant. It is $34 billion that 
government is spending. Only $4 billion of that, about 12 
percent is from Federal agencies. So much of the effort is 
being carried by state and local governments. And so it is bond 
measures. It is excise taxes. It is increasing the local sales 
tax and earmarking that for parks and recreation. So I think 
there is a lot more potential for the Federal Government to 
weigh in.
    Mr. BISHOP. Does anyone else want to comment on the subject 
matter?
    If you have this issue, it seems to be sort of paradoxical. 
You have, well, you want to have growth in this industry for 
the benefits that it pays into the economy. But it also seems 
to the extent we have growth, we paradoxically increase the 
demands on the public assets. Is that also true, Dr. Rasker, 
and do we just need a higher level of public spending on it? Is 
that the point?
    Mr. RASKER. I think in terms of the Federal Government, 
that is definitely the case. The Federal Government has really 
fallen behind in its investment in infrastructure for outdoor 
recreation. And you can see the return on investment is 
significant. But let's not forget. This is so important to 
people that when you pass a local bond measure and you ask 
local citizens to increase their property taxes and then 
earmark that for outdoor recreation infrastructure, that sort 
of effort passes in a remarkably high degree across the 
country. In other words, people are stepping up and paying for 
this personally out of their taxes. So it is time for the 
Federal Government, I think, to be a partner in this.
    Mr. BISHOP. Thank you, sir.
    Mr. King, my notes indicate and I missed it as you 
delivered the testimony, but your testimony made reference to 
the Recreation Not Red Tape Act. Is that correct, sir? Did you 
have a reference to that?
    Mr. KING. I do in my written testimony. Yes, sir.
    Mr. BISHOP. Yeah. That removes barriers and offers sensible 
21st century proposals for identifying and appropriately 
managing our unparalleled outdoor recreation assets now and 
into the future. Can you talk about the barriers briefly in the 
time we have got left, barriers that the legislation would 
remove?
    Mr. KING. I think what we are trying to say is that instead 
of creating more legislative red tape and creating businesses 
and opportunities to become involved in the industry that we 
should, like a lot of things, we should streamline this and 
make it easier for folks to get involved which ultimately 
results in more conservation-minded individuals and ultimately 
results in more constituents willing to support more funds 
going back into the recreation industry.
    Mr. BISHOP. Thank you very much.
    Madam Chairwoman, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Let me take this opportunity to thank all of the witnesses 
for taking time out of their schedules to be here with us 
today. Your testimonies were compelling and your experience 
really informs our work in this committee. We know that the 
economic prosperity of our nation is increasingly impacted by 
the growing outdoor recreation economy, which is served by many 
small businesses. Responsible for over $400 billion worth of 
economic output and supporting over 5 million jobs, the outdoor 
economy is a growing force. The lack of investment in our 
public lands and infrastructure is creating headwinds for the 
industry. I look forward to working with members on both sides 
of the aisle to support this part of the economy and addressing 
some of the challenges that they face.
    With that, I ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the c 
ommittee, we are adjourned. Thank you.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
